No. 20IN THE

Supreme Court of the United States
ONO PHARMACEUTICAL CO., LTD., TASUKU HONJO,
E.R. SQUIBB & SONS, L.L.C., AND
BRISTOL-MYERS SQUIBB COMPANY,
Petitioners,
v.
DANA-FARBER CANCER INSTITUTE, INC.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Thomas G. Saunders, a member of
the bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 7,629 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on March 8, 2021.

THOMAS G. SAUNDERS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
thomas.saunders@wilmerhale.com

